Washington, D.C. 20530

September 15, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Robert Banks v. United States of America,
S.Ct. No. 20-5074

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 10, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on September 21, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 21, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5074
BANKS, ROBERT
USA

MARTHA M. HALL
964 FIFTH AVENUE
SUITE 214
SAN DIEGO, CA 92101
619-544-1451
MARTHA_DIIORIOHALL@YAHOO. COM
619-544-1473(Fax)
LAUREN ROSENBERG
CRAVATH SWAINE & MOORE LLP
825 EIGHTH AVENUE
NEW YORK, NY 10019
212-474-1159
LROSENBERG@CRAVATH.COM
ANTONY L. RYAN
CRAVATH, SWAINE & MOORE
WORLDWIDE PLAZA
825 EIGHTH AVENUE
NEW YORK, NY 10019-7475
212-474-1000
ARYAN@CRAVATH.COM

